<html>
<title> - NATIONAL DEFENSE AUTHORIZATION ACT FOR FISCAL YEAR 2009 AND OVERSIGHT OF PREVIOUSLY AUTHORIZED PROGRAMS BEFORE THE COMMITTEE ON ARMED SERVICES HOUSE OF REPRESENTATIVES ONE HUNDRED TENTH CONGRESS SECOND SESSION</title>
<body><pre>[House Hearing, 110 Congress]
[From the U.S. Government Printing Office]


                         [H.A.S.C. No. 110-121]

                                HEARING

                                   ON
 
                   NATIONAL DEFENSE AUTHORIZATION ACT 

                          FOR FISCAL YEAR 2009

                                  AND

              OVERSIGHT OF PREVIOUSLY AUTHORIZED PROGRAMS

                               BEFORE THE

                      COMMITTEE ON ARMED SERVICES

                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED TENTH CONGRESS

                             SECOND SESSION

                               __________

         SEAPOWER AND EXPEDITIONARY FORCES SUBCOMMITTEE HEARING

                                   ON

     BUDGET REQUEST ON OVERVIEW FOR THE UNITED STATES MARINE CORPS

                               __________

                              HEARING HELD
                           FEBRUARY 27, 2008

                                     
                [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

                               ----------
                         U.S. GOVERNMENT PRINTING OFFICE 

43-783 PDF                       WASHINGTON : 2009 

For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
Washington, DC 20402-0001 

                                     










                   SEAPOWER AND EXPEDITIONARY FORCES

                   GENE TAYLOR, Mississippi, Chairman
NEIL ABERCROMBIE, Hawaii             ROSCOE G. BARTLETT, Maryland
RICK LARSEN, Washington              TERRY EVERETT, Alabama
MADELEINE Z. BORDALLO, Guam          J. RANDY FORBES, Virginia
BRAD ELLSWORTH, Indiana              JOE WILSON, South Carolina
JOE COURTNEY, Connecticut            BILL SHUSTER, Pennsylvania
KIRSTEN E. GILLIBRAND, New York      DOUG LAMBORN, Colorado
JOE SESTAK, Pennsylvania
                  Will Ebbs, Professional Staff Member
               Jenness Simler, Professional Staff Member
                     Karna Sandler, Staff Assistant

























                            C O N T E N T S

                              ----------                              

                     CHRONOLOGICAL LIST OF HEARINGS
                                  2008

                                                                   Page

Hearing:

Wednesday, February 27, 2008, Fiscal Year 2009 National Defense 
  Authorization Act--Budget Request on Overview for the United 
  States Marine Corps............................................     1

Appendix:

Wednesday, February 27, 2008.....................................    31
                              ----------                              

                      WEDNESDAY, FEBRUARY 27, 2008
FISCAL YEAR 2009 NATIONAL DEFENSE AUTHORIZATION ACT--BUDGET REQUEST ON 
              OVERVIEW FOR THE UNITED STATES MARINE CORPS
              STATEMENTS PRESENTED BY MEMBERS OF CONGRESS

Bartlett, Hon. Roscoe G., a Representative from Maryland, Ranking 
  Member, Seapower and Expeditionary Forces Subcommittee.........     3
Taylor, Hon. Gene, a Representative from Mississippi, Chairman, 
  Seapower and Expeditionary Forces Subcommittee.................     1

                               WITNESSES

Amos, Lt. Gen. James F., Deputy Commandant, Combat Development 
  and Integration, U.S. Marine Corps; Lt. Gen. John G. Castellaw, 
  Deputy Commandant, Programs and Resources, U.S. Marine Corps; 
  Brig. Gen. Michael M. Brogan, Commander, Marine Corps Systems 
  Command, U.S. Marine Corps.....................................     4

                                APPENDIX

Prepared Statements:

    Amos, Lt. Gen. James F., joint with Lt. Gen. John G. 
      Castellaw, and Brig. Gen. Michael M. Brogan................    40
    Taylor, Hon. Gene............................................    35

Documents Submitted for the Record:
    [There were no Documents submitted.]

Questions and Answers Submitted for the Record:

    Mr. Sestak...................................................    67
FISCAL YEAR 2009 NATIONAL DEFENSE AUTHORIZATION ACT--BUDGET REQUEST ON 
              OVERVIEW FOR THE UNITED STATES MARINE CORPS

                              ----------                              

                  House of Representatives,
                       Committee on Armed Services,
            Seapower and Expeditionary Forces Subcommittee,
                      Washington, DC, Wednesday, February 27, 2008.
    The subcommittee met, pursuant to call, at 4:23 p.m., in 
room 2212, Rayburn House Office Building, Hon. Gene Taylor 
(chairman of the subcommittee) presiding.

 OPENING STATEMENT OF HON. GENE TAYLOR, A REPRESENTATIVE FROM 
   MISSISSIPPI, CHAIRMAN, SEAPOWER AND EXPEDITIONARY FORCES 
                          SUBCOMMITTEE

    Mr. Taylor. The meeting will come to order.
    And I wanted first to apologize to our very distinguished 
panel for the better-than-hour-long delay on the votes. We ran 
into the conflict of the full committee's meeting this morning, 
and we are going to try to schedule as many of our subcommittee 
meetings in the morning from now on so we do not repeat this. 
But, again, we very much appreciate your indulgence. We 
apologize for the delay and for holding you up so long.
    The meeting will come to order.
    Today the Seapower and Expeditionary Forces Subcommittee 
meets to receive testimony on the United States Marine Corps 
fiscal year 2009 budget request. This hearing will also provide 
an opportunity to continue our formal series of official 
oversight activities on the Mine Resistant Ambush Protected 
(MRAP) vehicle.
    There are approximately 160,000 troops in Iraq today. Of 
those, 25,300 are Marines. Our goal has been and will continue 
to be to supply those troops with the best protective equipment 
this Nation can provide.
    Frankly, we have a poor track record in this area. Improved 
body armor, up-armored Humvees, jammers and, finally, fielding 
MRAPs is taking entirely too long. At this point last year, our 
Nation was still evaluating MRAP vehicle proposals from various 
manufacturers and the Administration had only proposed $600 
million for the program. With the help of our colleagues in 
Congress, we have now appropriated $16 billion to address this 
problem. We now expect approximately 8,000 MRAPs to be produced 
and at least 4,500 of them to be delivered to Iraq by this 
April. By October of 2008, 15,274 MRAPs will be produced, and 
these will be delivered no later than December of 2008.
    These are all noticeable improvements and are a testament 
to the hard work of Brigadier General Brogan and his team at 
the Joint Program Office, as well as the involvement of 
Secretary of Defense Gates, who, unlike his predecessor, has 
made a priority of this program and became directly involved in 
accelerating it.
    I am still convinced we can do more with the MRAP 
acquisition effort. We need to speed up and streamline the MRAP 
production process. I urge industry to work with the MRAP 
program officer to accomplish this goal. We cannot afford to 
repeat previous actions in failing to address warfighters' 
needs in a timely manner.
    Recently, an Associated Press article quoted an unofficial 
internal case study drafted by a Marine Corps civilian which 
severely criticized the responsiveness of the acquisition 
process and senior Marine Corps officials for failing to 
respond to an urgent request from Marine units operating in 
Iraq for MRAP vehicle production in February of 2005.
    I understand the Marine Corps has requested the Pentagon 
Inspector General to officially examine the allegations. I 
would welcome comment from our witnesses today concerning this 
issue and any improvements in the Marine Corps's rapid 
acquisition process. I would also like them to address, 
specifically, if they believe that it is true, as according to 
public reports, as to whether or not Mr. Franz Gayl has been 
ordered to stop work on this project.
    The combined Marine Corps modernization request in 
procurement and Research and Development (R&D) for fiscal year 
2009 totals $2.6 billion. This constitutes roughly 5.6 percent 
of the Department of Navy's modernization request. The problem 
I have with this amount is that the Commandant has submitted an 
additional $2.7 billion for modernization in his unfunded 
priority list. I am concerned that the Marine Corps is not 
being fully funded properly in the President's request.
    The top priority for the United States Marine Corps is for 
a Navy ship, the 10th ship of the Amphibious Transport Dock 
(LPD)-17 class. Think about it: The Marines feel so strongly 
about the future amphibious force they have listed a Navy 
vessel as their top priority.
    Amphibious fleet is a top property of mine. I remain 
concerned that the Navy and Marine Corps are not in agreement 
with the composition and capability of both the assault 
amphibious force but also the seabasing force, sometimes 
referred to as the Marine Prepositioning Force (MPF(F)). Today 
the subcommittee has the opportunity to discuss with the Marine 
Corps in public discussion. On March 14th we will have the 
opportunity to discuss this issue with representatives of the 
Navy.
    The Expeditionary Fighting Vehicle (EFV), a program that 
has suffered may delays and restructurings, is the Marine 
Corps's major ground modernization program. Almost 30 percent 
of the Marine Corps's R&D budget for 2009 is being applied to 
the EFV. The Marine Corps needs to get this program right.
    During the past year, members of this subcommittee, most 
notably my ranking member, Mr. Bartlett, have worked with the 
Commandant to address concerns about the vulnerability of the 
EFV to mine and Improvised Explosive Device (IED) attacks. We 
look forward to getting an update on those efforts today.
    The budget request includes $2.1 billion within the Navy 
aircraft procurement account for 30 V-22s, an increase of $400 
million and nine aircraft from fiscal year 2008. Since 
September of 2007, 10 Marine Corps V-22s have been deployed to 
Operation Iraqi Freedom, and it appears the Marine Corps is 
satisfied with their performance thus far. I, along with my 
colleagues, have concerns about the self-defense capability of 
this aircraft and hope that our witnesses will address that 
today.
    We have a very distinguished panel.
    And, again, we apologize for the delay to you very 
important gentleman.
    We would like to welcome Lieutenant General James Amos, 
Commander, Combat Development Command. And I would like to 
publicly congratulate General Amos on his nomination for a 
fourth star and appointment as Assistant Commandant for the 
Marine Corps. On behalf of the subcommittee, we wish him well.
    Lieutenant General John Castellaw, Deputy Commandant for 
Programs and Resources; Brigadier General Michael Brogan, 
Commander of Marine Corps Systems Command.
    At this time, I would like to recognize my good friend from 
Maryland the ranking member, Mr. Roscoe Bartlett.
    [The prepared statement of Mr. Taylor can be found in the 
Appendix on page 35.]

  STATEMENT OF HON. ROSCOE G. BARTLETT, A REPRESENTATIVE FROM 
  MARYLAND, RANKING MEMBER, SEAPOWER AND EXPEDITIONARY FORCES 
                          SUBCOMMITTEE

    Mr. Bartlett. Thank you very much, Mr. Chairman.
    I also want to thank our panel for being with us. We are 
very fortunate to have each of you serving our country. Thank 
you.
    As the Chairman said, today we are receiving testimony on 
major Marine Corps defense acquisition programs, such as the 
Mine Resistant Ambush Protected vehicle, the Expeditionary 
Fighting Vehicle, the LPD-17 and the V-22 tilt-rotor program. 
While all of these programs are critical and we look forward to 
learning more about them, it is the MRAP program that is once 
again in the news.
    The most recent articles refer to an internal case study 
dated January 2008 which was highly critical of the Marine 
Corps's failure to rapidly approve and field a Universal Urgent 
Need Statement (UUNS) for MRAP vehicles in February of 2005. Of 
course, we take such allegations very seriously and have met 
with the Marine Corps to discuss our concerns. It is my 
understanding the Marine Corps is also taking these concerns 
seriously and has requested the Inspector General's office to 
look into these allegations as well.
    I would like to highlight that the full committee and this 
subcommittee have been at the forefront of noting deficiencies 
with the wartime acquisition process and rapidly addressing 
critical warfighting needs from theater. And it was this 
committee, under the leadership of our chairman, that has held 
multiple hearings on MRAP alone. I think one thing we can all 
agree on is that the process was too slow and it is still too 
slow.
    However, what I am most interested in is, first, we are 
meeting current demands in regards to MRAP requirements; and 
second, has the Department of Defense (DOD) captured the proper 
lessons learned so that improvements are made to the process 
that we all agree has room for improvement. How do we prevent 
this from happening in the future?
    I am also interested in hearing more about the Marine 
Corps's number-one unfunded requirement, a 10th San Antonio-
class LPD. Last year, this LPD was the Navy's number-one 
unfunded requirement, and it has only shifted to number two in 
the Navy's list due to emerging repairs required for the P-3 
fleet.
    Again, I'll note that this committee, under the Chairman's 
leadership, provided full funding for a 10th LPD in the Fiscal 
Year 2008 National Defense Authorization Act. Unfortunately, 
the funding could not be sustained through conference with the 
Senate.
    I was further dismayed to see that, in fiscal year 2009, 
the Navy only requested funding for shutting down the 
production line. With all the talk of controlling costs of 
ship-building, I was dismayed that the Navy would request to 
take specific steps which can only have the effect of 
increasing the eventual cost of a 10th LPD and potentially 
increasing the cost of future platforms.
    It is time to put action to words. I would ask our 
witnesses to provide detailed rationale supporting the 
requirement for 11 LPDs, to aid this committee in justifying 
additional funding for a 10th ship in the near term.
    Again, I want to thank all of you for your service to our 
country. You are performing an incredibly important job for our 
warfighters. Thank you for being here, and I look forward to 
your testimony.
    Thank you, Mr. Chairman.
    Mr. Taylor. Thank you, Mr. Bartlett.
    Admiral Sestak, do you have an opening statement?
    Mr. Sestak. Not statement, sir, just questions. I will hold 
them.
    Mr. Taylor. Okay.
    General Amos, it is my understanding you are going to speak 
for the group?
    General Amos. Yes, sir.
    Mr. Taylor. Okay. Please, sir.

STATEMENT OF LT. GEN. JAMES F. AMOS, DEPUTY COMMANDANT, COMBAT 
 DEVELOPMENT AND INTEGRATION, U.S. MARINE CORPS; LT. GEN. JOHN 
 G. CASTELLAW, DEPUTY COMMANDANT, PROGRAMS AND RESOURCES, U.S. 
 MARINE CORPS; BRIG. GEN. MICHAEL M. BROGAN, COMMANDER, MARINE 
            CORPS SYSTEMS COMMAND, U.S. MARINE CORPS

    General Amos. Thank you.
    Mr. Chairman, Mr. Bartlett, Mr. Sestak, thank you for the 
opportunity to appear before this subcommittee today to talk 
about Marine Corps procurement and research and development 
and, quite frankly, answering any other questions that the 
panel or the members would have regarding their Marine Corps.
    We continue to appear in front of Congress and, in many 
ways, say the same thing over and over again about how we are 
very proud about the Marines we have in theater today. They are 
as good as any generation that has gone before. And I will tell 
you that much of the success that we have enjoyed in the al-
Anbar province out west, with the young men and women of the 
Army and the Navy and the Marine Corps, are as a direct result 
of the support of this subcommittee and Congress. We live with 
the equipment that you have bought; we have lived with your 
support, financially and spiritually. And we want to thank you 
all, on behalf of the Marines and their families, for that 
continued support.
    Our request before you today reflects and supports the way 
the Marine Corps fights. By design, we are a lightweight 
expeditionary force. And, in many ways, we need to work hard to 
protect that capability and that lightness.
    Maneuver warfare is our warfighting philosophy. It 
emphasizes speed and tempo, and allows us to apply that speed 
and tempo against the enemy in the form of firepower that he 
does not expect. We avoid enemy strengths, and while ruthlessly 
exploiting his weaknesses. We emphasize surprise, and we use 
deception as a weapon.
    Everything we do must reflect our expeditionary nature. Our 
doctrine, our recruiting efforts, the kind of Marine we 
recruit, the way we train our Marines, and the kind of 
equipment we buy all has to be scrutinized through the 
expeditionary filter. Our ability to get our force rapidly 
deployed across the world, in any climate, in any place, with a 
light--light enough to get there but hard-hitting enough to 
have an impact once we get there.
    We have recently seen, around the world, a tendency toward 
anti-access. It began in Kosovo and Serbia operations during 
the bombing campaign of Allied Force. We saw it again, later 
on, during the early days of Operation Enduring Freedom off of 
Pakistan, while we were moving our Marine forces into 
Afghanistan. And we saw it again when the Army tried to bring 
the 4th Division in from the west to provide a break-open front 
on the western side of Operation Iraqi Freedom.
    We have seen it even with some our allies and our coalition 
partners, even nations that are our friends that don't 
particularly want a large military footprint ashore. We even 
saw it during tsunami relief efforts, where they want our help 
but they don't necessarily want a large footprint ashore.
    Fortunately, the United States of America possesses an 
asymmetric power that can capitalize and that can be 
capitalized in only that kind of environment, and that is the 
U.S. naval sea power and, in particular, seabasing.
    I know this subcommittee is well-familiar with Maritime 
Prepositioning Force (Future) and its ability to form a sea 
base and become a hub, a centerpiece of a sea base, and allow 
us to step lightly not only on our friends but perhaps step 
lightly on our enemies, that allows us to form a seabasing 
offshore. And MPF is the centerpiece of that. Thank you for 
your continued support regarding maritime prepositioned ships 
forward--or force forward. And we ask that you continue to help 
us as we try to achieve this vital naval capability.
    As this subcommittee knows, the Marine Corps has an Office 
of the Secretary of Defense (OSD)-mandated and a 
congressionally mandated requirement for forcible entry. The 
assault echelon portion of our forcible entry requirements is a 
separate and distinct capability from our Maritime 
Prepositioning Force (Future) that I talked about just moments 
ago. Our required two Marine Expeditionary Brigade assault 
echelon, combined with a reinforcing brigade provided through 
MPF(F), will allow the Nation to land a fully loaded Marine 
Expeditionary Force on any shore and across any beach.
    The Chief of Naval Operations and the Commandant of the 
Marine Corps, as you know, have accepted a degree of risk in 
the numbers of amphibious ships. The requirement truly is 34, 
but they have accepted a degree of risk and said we will do 
with 30 operationally available amphibious ships to provide the 
2 Marine Expeditionary Brigades' worth of assault echelon 
force.
    Due to maintenance cycles, this means there must be a 
minimum of 33 amphibious ships for that assault echelon force 
in the inventory. Eleven of those must be big-decks; I am 
talking Amphibious Assault ships (General Purpose) (LHAs), 
Amphibious Assault Ships (Multipurpose) (LHD) kind of ships. 
Eleven must be LPD-17 ships, the San Antonio class. And 11 must 
be LSD-41 and -49s.
    As you know, the LPD-17 production line is scheduled to 
shut down, as Mr. Bartlett talked about, in fiscal year 2009. 
There is a $103 million applied to the shutdown of that line, 
and yet we will have only produced 9 of the 11 ships that are 
required for the assault echelon.
    Mr. Chairman and members of this subcommittee, the 
Commandant of the Marine Corps's number-one unfunded priority 
this year is funding for the 10th LPD. Our Nation needs this 
ship, and we need your help in procuring it.
    And finally, I want to thank the committee, the 
subcommittee, the members, for your great support with MRAP, as 
the Chairman has talked about. It wasn't but a year ago we had 
just a scant few of them in country. They were doing road-
clearance efforts and route clearance with our explosive 
ordnance Marines and sailors and combat engineers. And today we 
have over 900 of them in theater.
    It is a wonderful vehicle, it has protected a lot of 
Marines, and we are very pleased with it. And on behalf of the 
Marines and their family members, I want to thank you for your 
great support, Mr. Chairman and your subcommittee, in bringing 
the MRAP in.
    I would ask that you take our combined statement as a 
matter of record. And we stand prepared now to answer any 
questions that you have, Mr. Chairman.
    [The joint prepared statement of General Amos, General 
Castellaw and General Brogan can be found in the Appendix on 
page 40.]
    Mr. Taylor. Thank you.
    Hopefully with the agreement of the ranking member, I am 
going to yield my opening time to Admiral Sestak, who has some 
time limitations.
    Admiral Sestak.
    Mr. Sestak. I thank you, Mr. Chairman.
    And I apologize. I want to stay for the whole hearing, but 
because of the delays, I have a commitment that I have to go to 
before the next vote. Thank you, Mr. Chairman. So I will ask 
just a few questions, if it is all right. And, again, my 
apologies for not staying for it all.
    I wanted to pick up where your last statement was, General, 
on MRAP. I am very taken with the V shape and also the 
elevation of the craft to protect our men and women from a 
shock.
    My question, though, has to do with a concern I have that, 
under the Urgent Needs Statement and the Operational Needs 
Statement (ONS) for MRAP II, it states that you are to have a 
data distribution system, a data bus. And yet, when I go over 
with General Dynamics Land Systems (GDLS), Force Protection, 
Oshkosh, International, and BAE systems--they have come back 
with: They are not meeting that requirement.
    My concern is this, that Octopus, the acoustic shock 
protection device that we are putting on, so now we are able to 
hear the snipers from there, but it is not, via this data bus, 
able to automatically give that data to the gun system to 
rapidly fire, nor to transmit that data to the next guy down 
the road or closer to the sniper.
    Black Force--BFT, what is it called?
    General Brogan. Blue Force Trackers (BFT).
    Mr. Sestak. Forgotten all the terms.
    Ten percent of the MRAPs have this ability to know where 
everyone is. And not only that, but without this simple data 
bus on there, we take each of these network-centric systems and 
are kind of putting them on rather than following what is in 
your Urgent Needs Statement.
    So, in a sense, I think it is not only important--and what 
my question really has to do with is--the force protection of 
the V shape, but can we prevent our Marines from even getting 
into a dangerous situation because they are netted and somebody 
up there can tell them, ``The IED is--somebody is laying''--do 
you know what I'm trying to say?
    Why aren't we meeting that requirement? Again, I am fearful 
of putting a hull out there, rather than a truly netted, 
network-centric, fighting-capable, as a unit type of system.
    General Brogan. Sir, as you are aware, MRAP is principally 
an off-the-shelf system. We bought what was available at the 
time. We did not do an extensive development effort.
    Every single vehicle is capable of mounting the Blue Force 
Tracker. That is part of the government-furnished equipment 
suite that is being provided to those vehicles. To my 
knowledge, it is not 10 percent of the vehicles that are 
receiving them. It is my understanding that every single 
vehicle is receiving Blue Force Tracker.
    General Amos. It is.
    General Brogan. I am going to have to get back with you and 
take for the record the question about a data bus.
    [The information referred to can be found in the Appendix 
beginning on page 67.]
    Mr. Sestak. If you could, because I'm talking about MRAP 
II. And when Force Protection, GDLS--I think they are teamed 
together--came back, they didn't address the issue. Again, the 
reason for the data bus----
    General Brogan. We rejected those proposals, sir. We only 
accepted two.
    Mr. Sestak. Which two?
    General Brogan. Proposals from the team of iCubed, 
Faradyne, Oshkosh Truck Corporation and----
    Mr. Sestak. I thought those also didn't address--if you can 
just get back to me, I would be curious, because the data bus 
here is one where it would permit you not to just put 
everything on. It----
    General Brogan. Absolutely.
    Mr. Sestak. That always seems to be the second thing we 
think about.
    General Brogan. It is the enabler for network-centric 
warfare and being able to use those electronic devices.
    Mr. Sestak. Can you get back to me? I just want to get, 
very quickly before my time goes--
    General Brogan. Yes, sir.
    Mr. Sestak. My second one has to do with the--let me just 
say, about the procurement of the EFV. As you look at the 
ground vehicle procurement slides, normally you are about $100 
million. All of a sudden, we jump in a few years, for a couple 
of years, at $600 million for the EFV.
    Nowhere did I see in there any planning for Light Armored 
Vehicle (LAV) replacement or for the tank modernization. Is 
that--which needs to begin. We are already over our half-life 
of ground vehicles. And by the time we get to fiscal year 2010, 
we will be at 25 years, well above the half-life of ground 
vehicles.
    Why isn't that in your budget?
    General Brogan. We are currently going through a Service 
Life Extension Program (SLEP), sir, on the LAVs that will 
extend their service life significantly. I don't have the exact 
dates with me. Going from that baseline LAV--
    Mr. Sestak. Is that something that is in the budget, then?
    General Brogan. We are procuring those now.
    Mr. Sestak. Is that in your procurement budget?
    General Brogan. It is, sir.
    Mr. Sestak. On ground vehicles.
    General Brogan. I am not sure if it is in the line with 
line vehicles.
    Mr. Sestak. Okay, so it is somewhere else.
    General Brogan. LAV-A2 currently in procurement and being 
fielded.
    Mr. Sestak. All right. So it is somewhere, it is just not 
ready to procure.
    General Brogan. We have reset the service.
    Mr. Sestak. SLEPs or somewhere else then, probably.
    General Brogan. Yes, sir. And there is a small Research 
Development Test and Evaluation (RDT&E) line in the M1 tank----
    Mr. Sestak. All right.
    General Brogan [continuing]. That allows to us to continue 
to look at upgrades to that system. We rely very heavily----
    Mr. Sestak. That is good enough. That is great. You have it 
somewhere. And you can just get back.
    The other one is, once you get your 27,000 or 29,000 
troops, it appears as though you are going to have to have a $4 
billion increase in Military Personnel (MILPERS) every year for 
them. I didn't see where that--whereis that going to come from?
    General Castellaw. Sir, if we get----
    Mr. Sestak. After this big ramp-up just to procure them, 
get the equipment up and everything.
    General Castellaw. Yes, sir, we have the manpower. We have 
a total of $32 billion across the Fiscal Year Defense Plan 
(FYDP). And right now the manpower for the 202-K is inside the 
FYDPs. In 2007 and 2008, we use supplementals and----
    Mr. Sestak. I was talking fiscal year 2013. Once you get to 
2013, is it true that, to maintain these, it is going to be 
about $4 billion a year more?
    General Castellaw. Sir, we have put into the budget the 
requirement because we start at fiscal year 2011, where we will 
be at 202 by then.
    Mr. Sestak. Okay.
    General Castellaw. So we have a total of $32 billion for 
insertion into the FYDP to buy the equipment, to do the 
Military Construction (MILCON), to pay the people.
    Mr. Sestak. I guess I didn't see--so it is going to be 
about $4 billion per year in MILPERS, correct? For the normal 
MILPERS----
    General Castellaw. Well, our MILPERS, you know, right now, 
for this year, is going to be about $12 billion, as I recall. 
So, yes, sir, we are going to have an increase running about $1 
billion to $2 billion a year. We have had it until we get to 
2011, and then it will level out as we have reached our----
    Mr. Sestak. Okay. I think that----
    General Castellaw. Now, what increases--and, again, this is 
in MILPERS, and this will be some of the added increase--is we 
have provided bonuses, re-enlistment bonuses, and some other 
special pays that we will have to deal with. It is above what 
we originally put into the $32 billion.
    Mr. Sestak. All right. But we are aware of this wedge that 
then continues on?
    General Castellaw. Yes, sir.
    Mr. Sestak. And I appreciate that. That is really all I 
needed. I am just most curious about this, because sometimes we 
can put a great defense hull out there, but is it all we can 
be? I am sorry to use an Army expression.
    Thank you very much, Mr. Chairman.
    Mr. Taylor. Thank you, Mr. Sestak.
    The Chair now recognizes the gentleman from Maryland, the 
ranking member, Mr. Bartlett.
    Mr. Bartlett. Thank you very much.
    Are you familiar with the report of the Defense Science 
Board Task Force on DOD Energy Strategy, ``More Fight, Less 
Fuel''?
    General Amos. Sir, I am not.
    Mr. Bartlett. Okay, well, it is just out February of this 
year. In this report, they talk about the Blast Bucket, a light 
armored ground vehicle whose concept development had been 
supported by the Office of Naval Research.
    Have you been briefed on that program?
    General Amos. I don't believe I have been, Mr. Bartlett. 
And I am plugged into them pretty tightly.
    Mr. Bartlett. There is a brief description in here. It is 
prefaced by referencing the two vehicles that will be follow-
ons to the Humvee, which, when it is up-armored, is pretty darn 
heavy, and it is taxing some of the capability because of its 
heaviness. And the two programs which follow it are the Joint 
Lightweight Tactical Vehicle (JLTV) and the MRAP, both of which 
are considerably heavier than the Humvee.
    And, as you know, there are already some missions for which 
weight is a real liability. And our Marines are now sometimes 
choosing to use the Humvee rather than the MRAP for some 
missions because of the size and weight and the cumbersomeness 
of the Humvee.
    Recognizing the need for lightweight vehicles, which still 
protect the passengers, they have developed this concept of the 
Blast Bucket concept. And they have a little of it there. It is 
half the weight of a Humvee, it carries as many people as the 
Humvee and, they believe, protects it better than the Humvee.
    And I haven't seen the details because I have only this 
brief material from it. But I gather, from reading and looking 
at it, what they have is the troops in what they call a blast 
bucket, where they have concentrated the armor around the 
troops, so they end up with a vehicle half the weight, carrying 
as many people as the Humvee.
    With that in mind, can you please tell us if you are taking 
steps to maximize protection while minimizing weight and fuel 
consumption for both the Expeditionary Fighting Vehicle and the 
Joint Light Tactical Vehicle? And would you have your people 
take a look at the Blast Bucket vehicle concept, which has been 
developed by the Office of Naval Research?
    General Amos. Sir, first of all, I will get into that 
report. I have heard about the Blast Bucket, but only verbally. 
And I will come back to you with some comments about that as 
soon as I get a chance to read and review the report. Because 
we are plugged into them.
    I suspect it is tied into the effort that is ongoing--DOD 
effort--to try to get our arms around the Joint Light Tactical 
Vehicle. The program has slid to the right two years, as you 
know, primarily as a result of R&D and Science and Technology 
(S&T). I mean, there is capability that we want on that 
vehicle, with regards to lightweight armor and yet protection 
levels that are significantly higher than we have on some 
vehicles right now, but yet we want the vehicle to be lighter 
for all the reasons I talked about in my opening statement--you 
know, the expeditionary nature for us.
    So I know for a fact that we are pushing very hard. We want 
the vehicle to weigh somewhere around 13,000 pounds. Right now, 
the last number I had from the program office was somewhere 
probably not going to get less than around 17,000 pounds and 
more likely up in the 20 thousands.
    So it is an effort toward bringing this thing down, sir. It 
is an effort to bring R&D and S&T in there, I promise you that. 
I can't speak to that report, but I will come back to you on 
that.
    Michael, do you have anything you wanted to talk about?
    General Brogan. No, sir.
    Mr. Bartlett. Thank you, Mr. Chairman. For the moment, I 
will yield my time and come back later.
    Mr. Taylor. Sure. Thank you, Mr. Bartlett.
    Gentlemen, we had a great conversation yesterday, and I 
very much appreciate you stopping by and visiting with the 
ranking member and myself and members of our staff.
    In the course of that, this subject of the articles in USA 
Today and some other Associated Press (AP) stories regarding 
some pretty--no, some very strong accusations that senior 
officials within the MRAP program knew about the need for it, 
were told by field commanders, and that, along the way, that 
message wasn't conveyed.
    I want to give you this opportunity to tell me your version 
of what is going on, for the sake of the American people, for 
the moms and dads of the young men and women who you have the 
privilege of leading.
    And I would hope, in the course of that, that you could 
respond to an article that came out today that, again, by name 
mentioned a gentleman by the name of Franz Gayl and an 
accusation that his investigation was told to cease--in effect, 
cease and desist.
    And I will open that up to the panel.
    General Castellaw. Sir, I would be glad to address this.
    Next month will be the 38th anniversary of when I left the 
farm and signed up for the Marine Corps. And from the time I 
came in until now, our culture has inculcated within me and 
within every Marine the first priority is taking care of our 
Marines and the sailors who go with it.
    This committee has been in the forefront of ensuring that 
we have had what we needed to do that. And we very much 
appreciate it.
    But I must tell you that we also are very careful about 
those types of allegations that would say that we compromised 
what I told you has been our priority, taking care of our 
Marines and sailors.
    As a result of that concern, we have asked for the DOD 
Inspector General (IG) to do an independent investigation of 
all the elements that have been associated with our decisions 
regarding fielding of the MRAP. We will cooperate fully, 
openly. And we want all the facts to be laid out for you, the 
committee, and the American people, who we are ultimately 
beholden to, to make sure they understand processes and the 
decisions that went on that got us to where we are right now.
    If you would bear with me just a moment--and during this 
course, I will talk about some of the specifics that you asked 
about. But if you would, just for a moment, go back with us to 
the latter part of 2003, when we came back in, the Marine 
Corps, for a period of time, redeployed from Iraq and then we 
came back. You know we were tremendously successful with 
maneuver warfare, with the mobility that we were able to use 
with our vertical assets, our fixed-wing, in terms of fire, and 
our ground mobility.
    We came back to a different situation, and we reacted to 
it. The first series of threats that we had to deal with when 
we went back were Rocket-Propelled Grenades (RPGs), small arms, 
primarily. And as we continued our employment there, then we 
started to see increased use of IEDs.
    As those things occurred, first off, we started putting 
armor on our vehicles. And, again, sir, you know that the Jeeps 
that we came up with in World War II and which came with us all 
through Vietnam up to where we are now and were replaced by the 
Humvee were not armored. And so we went through a process where 
we started doing that.
    And thank God, sir, we have great Marines and soldiers who 
don't wait for things to happen, just like their forefathers 
did at Normandy when they put the blades on the tanks to punch 
through the hedgerows. And we started putting armor on there. 
And then the rest of us caught up with it, and we got what we 
call the Marine Armor Kit, the MAK, and we started putting 
those on. We started seeing more IEDs, side blasts primarily, 
in addition to the RPGs and small arms. And we ordered our 
first 500 additional up-armored Humvees.
    As the battle continued, you know, we got into 2004, we 
started getting vehicles that were purposely built for those 
units that were in the forefront of dealing with IEDs, the HEV, 
the Hardened Engineer Vehicle, among others, so we started 
pulling those in.
    But at that time, we also found out--and I will ask General 
Brogan at the appropriate time to come in on this--at that 
time, also, it was taking a long time to get those vehicles in, 
and the industry was proven not completely ready to produce 
large numbers of vehicles. They produced the ones we--in those 
smaller numbers that we asked for.
    As we go into 2005 late and with the IEDs increase, we 
start to see the underbelly stuff, and that is when, in January 
2005, we came in with the UUNS that you saw and that has been 
widely discussed, asking for vehicles and capability against 
those IEDs. The Marine Corps looked at that and they looked at 
what the threat was and they looked at what we saw as being 
readily available, get it to the fight, and it was the up-
armored Humvee. And we put the maximum effort to bring those 
in.
    The Commandant had a group of three-stars together around 
June of 2005, and he said, ``Do whatever it takes to get 
those.'' The individual next to me, Jim Amos, was at that 
meeting, and he can talk about that again at the appropriate 
time.
    But all along here, we did stuff like additional 
intelligence, surveillance, reconnaissance assets. We equipped 
the individual Marine with flame-resistant equipment. We put 
jammers on the vehicle. We did many other things. And, again, 
you supported us greatly on this, to support the Marine in his 
mission.
    One of the little vignettes, I visited a squadron, a 
Harrier Squadron in Yuma, Arizona. I walked in, I was listening 
to this captain who was briefing me. And I didn't tell him what 
to tell me. He said, ``Sir, let me tell you what we have done 
with the lightning pod,'' which this committee has very 
strongly supported, ``and the Rover III,'' which is the laptop.
    I was talking to the guy on the ground, and he said, ``Hey, 
we always get hit when we go over this bridge and go around the 
corner. How about looking there?'' so we took the lightning 
pod, looked at the site. The guy on the ground said, ``Yeah, 
look over there by that tree.'' Found people and IEDs, and the 
Harrier took them out.
    So it is much more urgency that we demonstrated in bringing 
all these other elements in there, in addition to doing what we 
did with the armor to the Humvee.
    As we got into later 2006, early 2007, the underbellies 
became the issue. They still had a smaller percentage of the 
overall attack, but of course we were getting casualties from 
them. And then, again, with a decision process and with the 
support of this subcommittee and with the support of OSD, and 
this year we have gone from a couple hundred to almost a 
thousand that have been fielded in there now.
    In regards to the report about--I think the word was 
muzzling, I am not exactly sure--this Mr. Gayl, the Marine 
Corps has not--has not--muzzled this individual. The papers he 
produced I have read from cover to cover. And the ACMC, 
Assistant Commandant of the Marine Corps, has read it from 
cover to cover. And we take seriously those charges that he has 
made--not that they are true, until we verify it, but we take 
seriously any time anybody challenges our dedication to taking 
care of the Marine and doing the right thing.
    And so this investigation will lay all this out, and we 
will show open kimona of what the process is, what the 
timelines, what happened from the time that the need arose to 
where we are today.
    Before I continue, I would ask General Amos at this time to 
talk about the June 2005 executive offsite.
    Mr. Taylor. The Chair recognizes General Amos.
    General Amos. Sir, around the February, March time frame of 
2005, Commandant General Hagee sent Major General Dave Bice, 
who was our Inspector General, and a team of Marines and 
civilian Marines over to Iraq. And their job there was to take 
a look at the equipment, take a look at how much equipment. It 
looked, at that point, it was clear we were going to be there 
for a while, and so we were trying to figure out how much 
equipment we truly needed on spot.
    So General Bice and his team stayed there for almost three 
months and came back in late May. And in early June, the 
Commandant of the Marine Corps had an executive offsite down at 
Quantico. And I am the only person in this room here that was 
in that room that day.
    And there were allegations that decisions were made 
regarding buying Humvees over Mine Resistant Ambush Protected 
vehicles as a result of procurement issues and as a result of 
programatic issues. In other words, we would have to take money 
out of one fund and program to fund for this, when, in fact, as 
you know, Mr. Chairman, we haven't taken a dime out of any 
programs to fund the MRAP. That has all come from the 
generosity of Congress.
    But, at that point, General Bice, after he had given his 
full report--and there were about 15 of us in the room--he gave 
his full report on the equipment and the movement of equipment 
and how we should start doing some depot-level repair in Iraq. 
David Bice then said, ``Commandant, I need to give you one more 
piece of information.''
    Now, remember, General Castellaw said that the Marine Corps 
had spent a lot of money on the Marine Armor Kit. And, by all 
accounts, side blasts, the Marine Armor Kit was every bit as 
good as the 1114 up-armored Humvee on the side blast. So we 
were pretty confident in that. So we were fielding that kit out 
of our own monies and doing well with it.
    And, at the time, Dave Bice said, ``Commandant, the young 
lance corporals and Private First Classes (PFCs) riding on the 
highways in Iraq have more confidence in 1114 than they do in 
any other vehicle in Iraq.'' And I remember General Hagee 
turning to the head of programs and resources at that time, who 
was General Gardner, and he said, ``Emer, I want to replace all 
the Humvees we have in Iraq.'' Now, remember, we have been 
buying these MAK kits and putting them all on there at great 
expense to protect our Marines. And he said, I want to replace 
every single Humvee we have in Iraq with the M-1114, because 
that is the new gold standard that the young PFCs and lance 
corporals believe in. And that is exactly how the decision was 
made.
    Mr. Chairman, Mr. Bartlett, there was not one word spoken, 
not a backward glance, not a raised eyebrow for any other 
reason. The threat dictated at that time that we buy the 1114. 
And we made an effort to get in line behind the Army, and then 
eventually the Department of Defense helped us kind of get in 
with the Army on the buy. But that is exactly how it happened.
    General Castellaw. Sir, over the holidays, I went over to 
Iraq, and I had the opportunity to go out on a patrol. And I 
had an opportunity to talk to these lance corporal riflemen who 
operate. And, again, at the end of the day, all the stuff that 
we do is pointed on this rifleman, enabling him to do his job. 
At some point in the evolution, whatever vehicle he is in, he 
is going to have to get out, close the width, and destroy the 
enemy. And that is what this is all about. In talking with 
them, they said, tell the people back there, thank you for the 
MRAP. It does what we need it to do. But it is not the only 
answer.
    And the patrol I went out on had two MRAPS and it had two 
Humvees. The Humvees give more tactical flexibility because 
they can go places that the MRAP can't. But the MRAP gives 
additional cover and protection against some of the threats. 
And it can be used together, because, as our guys train in 
Mojave Viper where we have money to do that, to train, and 
train at other locations, and they get over there and they are 
experts at being able to figure out how to use to the best the 
equipment that you have given them. And they are doing it 
tremendously.
    And, at this time, again, with your approval, I would ask 
General Brogan to jump in.
    Mr. Taylor. The Chair recognizes Lieutenant General Brogan.
    General Brogan. Thank you, sir.
    General Castellaw mentioned the hardened engineer vehicle. 
The Marine Corps procured 27 of those vehicles. We went on 
contract in April of 2004 for those first 27 vehicles. The 
first unit was delivered in October of 2004, 7 months later. 
The last unit of those 27 vehicles was delivered in January of 
2006. It took 21 months for that vendor to produce those 27 
vehicles.
    The next contract that we awarded for that class of 
vehicle, which we now know as MRAP, was for the Joint EOD Rapid 
Response Vehicle, the Joint Explosive Ordinance Disposal Rapid 
Respones Vehicle (JERRV), and that was for 122 vehicles. We now 
have something of a warm line, because they have been producing 
these Cougars. We awarded that contract in May of 2005, so that 
is subsequent to the February of 2005 Urgent Universal Needs 
Statement. The first of those units was delivered in August, so 
3 months. So they have improved their lead time because that 
production time is now warm. The last of those units was 
delivered in June of 2006, so 13 months later.
    The DOD IG investigated our awarding of those contracts, 
because for those particular contract vehicles we used a 
commercial contract rather than a normal Department of Defense 
military equipment contract. We did that at the time because 
there were some nongovernment organizations who had procured 
these type of vehicles to ride around in mine fields in Bosnia-
Herzegovina, in Bosnia, South Africa and Rhodesia.
    So was it a stretch to call them a commercial asset? 
Probably. But it was the rapidest way for us to go and procure 
them. We were chastised by the DOD IG for that, and they 
specifically cited the fact that the vendor delivered 86 
percent of their vehicles more than 30 days late.
    So that backdrop describes the state of the industrial base 
at the time that that Universal Needs Statement was published.
    The next award we made was for some Buffalos, four 
vehicles. And now, again, we are doing much better. The first 
vehicles were produced one month after award, and then the last 
three months after award.
    And then the final contract of that type was again for 
JERRVs for another 79 vehicles. And they produced the first 
vehicles in 4 months--we are now in 2006--and the last units in 
February of 2007, 10 months later. So it took them 10 months to 
deliver those 79 vehicles.
    You then are very well familiar with how we embarked on the 
MRAP program in earnest in November of 2006; how our 
acquisition strategy, recognizing the very limited capability 
available at that one vendor--and we went forward to the 
multiple vendors.
    But separate from that, as you well know, all of the 
funding for MRAPS has come from supplemental funding. So to 
accuse the Marine Corps of protecting its programs of record in 
order to not fund Urgent Universal Needs Statements is just not 
accurate.
    In 2004 and 2005, my predecessor at Marine Corps Systems 
Command expended 100 percent of his below-threshold 
reprogramming authority, taking money out of programs of record 
in order to buy items of equipment that were solicited through 
the Urgent Universal Needs Statement.
    There has been over 225 urgent UNS, but the Marine Corps 
has completely fielded everything that the operational 
commander has asked for. There is another 61 of those that we 
are still in process of fielding. There were some that were 
refused. And there were some that were converted to normal 
Universal Needs Statements because they were deemed to require 
such a long research-and-development effort that they were not 
readily available. In each instance, we believe that we have 
done what we could do support the warfighter in the field.
    The Army experienced similar difficulties with their 
contracts with land systems OMC in South Africa for the RG-31s. 
We are procuring some of those under the MRAP program, but they 
are not delivering at rates any higher than what was 
experienced in the early days of these other vehicles here in 
the United States. It is only through the concerted effort and 
the support of your committee and the Members of Congress to 
provide us the supplemental funding that has allowed us to 
reach the point of where we are today in MRAP.
    Both our Generals spoke of the 900 Marine vehicles that 
have currently been fielded in Iraq. To date, the Joint MRAP 
Program Office has taken delivery of more than 5,500 vehicles. 
Of that number, there are more than 2,400 fielded in the hands 
of warfighters, and another 400 are in the transportation 
pipeline on their way to Iraq.
    So the pipeline is now full. We are providing those 
vehicles because the industrial base has responded. And as you 
have pointed out, we are in a position now to be selective as 
which type, series, models we continue to buy, based on the 
feedback we receive from the warfighter and what his desires 
are.
    General Castellaw. Sir, we expect that the DOD IG 
investigation will go through in detail, so the framework that 
we have just laid out will be open for everyone to see the 
processes that we went through, the decisions that we made and 
what the results were.
    Mr. Taylor. I will open this up to the panel. Is the 
investigation about Franz Gayl, is it ongoing? Does it remain 
funded? Has it been terminated? What is the status of it?
    General Castellaw. Sir, what that was--his boss--and I have 
reviewed the paper on it this morning.
    He was asked to look at the MRAP and how the process went. 
And he came out with what I call a paper. I am not sure whether 
it reaches the level of a study or a report, but it is a 
personal document that he went to great lengths to produce. I 
think it is about 120 pages.
    There was some guidance about what he was too look at. 
General Natonski, as Plans, Programs and Operations, a three-
star, had overall cognizance of Mr. Gayl and the project that 
he was doing.
    He produced this paper, and he was told, okay, you have not 
completely stayed within the parameters and reached the 
objectives that we wanted you to do, so cease on the paper.
    He has not been muzzled. He can continue to produce any 
personal documents that we wants to. But in terms of the 
particular project that he was working on, it is ceasing.
    General Brogan. Well, he turned in his finished product, 
and that will now, as the Assistant Commandant has requested, 
become the basis for the IG to kick off the independent--
    Mr. Taylor. Is that report classified?
    General Castellaw. No, sir, it is not.
    Mr. Taylor. Okay. Well, I would like to ask unanimous 
consent that the report be submitted for the record.
    General Castellaw. Yes, sir.
    [The information referred to was not available at the time 
of printing.]
    Mr. Taylor. General Brogan, number one, you have been given 
a tough task. And I am trying to be fair to all concerned, 
starting with the Marines, the young men and women in the 
field.
    An area that I think is a fair question to ask: It was 
brought to my attention by a retired Army colonel. Going back 
as many as 15 to 20 years ago, the South Africans had developed 
a successful V-bottom vehicle to respond to the mine threat 
during their wars. The Soviet Union, as of about 15 years ago, 
had developed successful V-bottom vehicles.
    I think General Castellaw has done an excellent job of 
walking this committee through the emerging threat. I think it 
was very accurately portrayed, that it wasn't always a threat 
from under-body explosions, that it migrated as the enemy found 
a vulnerability and then worked to exploit that.
    I guess what this committee would like to hear and, in 
fairness, the American people would like to hear, and that is, 
as the Marines came to realize that the threat had migrated to 
unfortunately very successful attacks from underneath the 
vehicles, who within the senior leadership of the Marine Corps 
said, ``The South Africans have a solution. The Russians have a 
solution. What are we going to do to make something similar to 
that?''
    And, again, in fairness to you, it was either you or one of 
your contemporaries who pointed out it is not enough just to 
have a V-bottom vehicle; you have to get rid of the fuel. If 
you don't get rid of the fuel, you have done nothing but 
incinerated the crew. And, again, that is apparently something 
the South Africans weren't good at, and the Russians were not 
necessarily good at it. It was one of the technological 
challenges you had, among others.
    But who within the Marine Corps--and the purpose of all of 
this is I hope this becomes a lesson learned, that we learn to 
recognize a vulnerability sooner, that General Amos in his 
capacity as Assistant Commandant can establish a program so 
that we respond to this sort of threat quicker.
    And, quite frankly, it was only recently that I became 
aware that both the Secretary of Defense and President of the 
United States have the legal authority to walk into any factory 
and say, ``I want it converted to wartime use right now.'' And 
that wasn't used, so there were a number of things that could 
have happened that didn't happen.
    And for the sake of this not happening again, I would ask 
that you walk us through what did occur.
    General Brogan. Yes, sir. As General Castellaw described, 
when the threat migrated from side blast, improvised explosive 
devices, to under-body--
    Mr. Taylor. And so, give me a timeline when it is agreed 
upon, the Marines, as to when this actually occurred.
    General Brogan. During 2006.
    Mr. Taylor. Okay. Early 2006? Late 2006?
    General Castellaw. We started seeing some of the initial 
stuff in late 2005. And then we had a little pause as we went 
into 2005, and then we had some increase in the IEDs. And then 
we started to see a greater percentage of under-belly going 
into 2006.
    Mr. Taylor. Okay.
    General Brogan. And if my memory serves, sir, in June of 
2006 is when that first Joint Universal Operational Needs 
Statement (JUONS) for 185 MRAP vehicles came out of the Multi-
National Force-West area of operation, where the Marines were 
operating in Anbar province. That was followed 2 months later 
by a second JUONS, Joint Universal Operational Needs Statement, 
for a thousand vehicles. That total--1,185 vehicles--became the 
genesis of what we know today as the MRAP program.
    That started the approval process through Committee for 
Defense of National Interests (CDNI) and the Marine Corps 
Requirements Oversight Counsil (MROC) to approve it and then to 
go find the source of funding. I think the first $400 million 
was found in the 2006 supplemental. General Gardner provided 
that, and that is how we started the program. And then we 
sought in the fiscal year 2007 supplemental the first tranche 
of money to buy a slug of vehicles. And then you all added in 
the full supplemental--so in the bridge and then in the full, 
you added the initial money that was needed to keep those 
production lines that we had established open.
    And the recognition of that first 1,185 vehicles blossomed 
very quickly then. The other services came on-line and 
indicated a need: the Navy for roughly 600; the Air Force for 
roughly 700; Special Operations Command for 333; and, 
initially, the Army for 2,500. Those, combined, added up to the 
first 4,060 number that, when I first appeared before your 
committee last year, we discussed.
    And we had gone through the request-for-proposal process, 
we had received and graded those proposals, and we were on the 
cusp of making those first indefinite-duration, indefinite-
quantity contract awards to nine vendors. And that is when I 
hazarded my guess that we would do 4,060 vehicles by the end of 
calendar year 2007. And as you and I have discussed, I missed 
that by 29 days.
    Subsequent to that, the Marine Corps changed its view; its 
number increased to 3,700. At that point, given the propensity 
for under-body attack, the decision was made to go to an all-
MRAP fleet, replace every up-armored Humvee that operated 
outside the wire. The Army's number went from 2,500 to 10,000. 
And that took us to the 15,274--plus 100 test articles--15,374 
that is the requirement until the next Joint Requirements 
Oversight Committee--a memorandum is published, I suspect in 
the coming weeks based on meetings that were held last week.
    That led us to, as I said, those first nine contract 
awards--we recognized immediately that that could cause a 
sustainment challenge, particularly if all nine produced two 
different types, the Category I and Category II. That didn't 
completely come to fruition. One of the vendors fell out, of 
his own volition. He recognized that he could not meet our 
timelines. Frankly, he still had a development effort to do, 
and so he fell by the wayside.
    In our testing, we eliminated outright one of the vehicles. 
We had taken a risk and provided some low-rate initial 
production delivery orders to seven total vendors, even before 
we had completed testing, so as to compress the timeline from 
ordering vehicles to delivering them to putting them in the 
field.
    During those tests, we only needed two more vendors, which 
brought us down to the five which are currently producing 
vehicles. In the most recent low-rate initial production 
delivery order that we placed in December, Low Rate Initial 
Production (LRIP) 10, we further reduced that to four vendors 
that are currently producing vehicles that have additional 
follow-on production requirements.
    It is my understanding--and I am waiting for the Army to 
give me the requirement--but it is my understanding and 
expectation that, for what may be the last or second-to-last 
delivery order that we expect to place some time in March, that 
the Army will want only two vendors. One of those vendors will 
be producing Category I vehicles; the other vendor will be 
producing Category II vehicles.
    We have gone to each of our prime manufacturers and asked 
them two questions: First, if your design is selected, will you 
be willing to license other vendors to build your vehicle? And 
the second question was, if your design is not selected, would 
you be willing to produce the design of another manufacturer? 
In all instances, they have indicated their agreement to do 
that, subject to their being able to place for certain 
intellectual property right guarantees. But there is unanimous 
consent among the vendor base that they will produce whatever 
vehicle the United States Government would like them to 
produce.
    You also asked about the Defense Priority and Allocation 
System (DPAS). We did request the DX rating for the MRAP 
program. That is the highest rating within the DPAS system. The 
Secretary of Defense did approve that rating, and it has been 
applied. It has allowed us to get front-of-the-line privileges 
for components like axles, tires, high-hardened steel and 
components that we use to manufacture these vehicles.
    It only applies to companies that operate in the United 
States of America. However, we have received very good 
cooperation from our allies to provide some components for 
these vehicles, some Canadian companies as well as Israeli 
companies. And they have, to the extent they could, helped us 
deliver these vehicles.
    Mr. Taylor. Thank you, General.
    Congressman Bartlett, over the years, has raised some 
excellent questions about--let me back up. You mentioned 
several different designs of MRAPs.
    General Brogan. Right.
    Mr. Taylor. Did these vendors supply those out of the 
goodness of their hearts, or did we pay them to submit those 
designs?
    General Brogan. We paid for the product; we did not buy the 
design. We did put a data rights clause in every contract that, 
should we make a decision that we want to own the Technical 
Data Package (TDP), we have the right to procure it. So no one 
is preventing us from buying the TDP. But, as you know, when we 
started the program, we took what was available. And we began 
to deliver that. After we tested to ensure that it would meet 
the minimum performance standards, we gave additional delivery 
orders, and we are fielding those vehicles.
    At the time, we knew that there were additional protections 
that the warfighter wanted to withstand some stringent threat, 
the Explosively Formed Penetrator (EFP). At the time, there was 
no EFP solution readily available for us. There is now. And we 
have the opportunity to address that threat in three different 
ways.
    The first is to retrofit onto our existing vehicles 
additional armor that provides that increased protection. Now, 
depending on the vehicle, how much additional weight the 
chassis can hold is in question. And so we are working with the 
user now to have them identify for us which vehicles, operating 
in which areas of Iraq, they want us to retrofit.
    Additionally, we asked those prime contractors to take a 
look at what they could change in their design that would 
provide this increased level of protection, through a process 
that we call ``Engineering Change Proposals (ECP).'' Those ECP 
vehicles were, in fact, procured in the December delivery 
order, and they will begin to deliver in April of this year. So 
the vehicles that come in April will already come with this 
increased level of protection built into them, and the user can 
dictate that they go into the areas where that sort of 
protection is most needed.
    The third effort is the MRAP II. We held a full and open 
competition that began in November of 2006. I mentioned that we 
awarded nine contracts. We looked at all 10 proposals that were 
given to us and awarded, in fact, 9 of the 10 contracts.
    Subsequent to that, certain members of the industrial 
community indicated that they had other designs that they would 
like to have a chance to compete. And through their discussions 
with Secretary Young, through meeting with various Members here 
on the Hill, we felt that it would be a good opportunity to 
take a second look at what the U.S. industrial base could 
produce that might provide purpose built into the vehicle, 
designed from the ground up, if you will, rather than an 
engineering change added to an existing design--this level of 
protection. And that was the genesis of the MRAP II program.
    We have currently awarded two contracts on a number of 
proposals that we have received to provide to us six test 
articles that we can then go through and evaluate how well they 
meet these increased levels of protection.
    But, additionally, other members who submitted proposals, 
who we provided feedback to on the deficiencies of their 
proposals, have continued under their own research and 
development efforts to improve them to a point where we think 
potentially two more may have the opportunity to provide us 
test articles. We are not quite there yet. We are going to 
continue to evaluate what they have provided us. But it looks 
reasonable.
    Now, all of that, unfortunately, could expand the menu 
choices available. Once we have tested those, once we see the 
efficacy of those designs, we will offer the opportunity to the 
warfighter to weigh in with what he thinks his needs are. And 
then, if he decides that he wants some of those vehicles, then, 
by all means, we will meet it.
    Mr. Taylor. General, a couple of observations. And my 
memory is far from perfect, so I want you to correct me if I 
say something that you find inaccurate.
    About a year ago this time, I was taken to Aberdeen Testing 
Ground to see most of the varieties that you were looking at 
for acquisition purposes. I remember, at the time, I was handed 
a graph of the nine or so different vendors and about nine or 
so different criteria that the Marine Corps was looking at to 
give a pass/fail judgment to. It was things like armor; it was 
EFV protection; it was how the seats were suspended, how did 
that affect a blast from below and the trooper riding inside--
so a number of different criteria.
    I remember one of the vendors only succeeded on one of the 
criteria. Several of the vendors had maybe seven of the nine. 
And I thought I asked either you or someone there the question, 
``Okay, this guy has his seats right but nothing else. Why 
can't we incorporate that seat in all the other vehicles?'' and 
I thought the answer was--and I am going to give you the 
opportunity to correct me--that that is proprietary to that 
vendor.
    Now, that was a year ago, and I think the statement was 
made, ``Let's fix that.'' Let's fix that so that when we get a 
request for a proposal, we, as a Nation, are paying for this, 
that we are going to own that information from now on, that we 
don't need to go back and beg some vendor for the right to 
build it someplace else.
    I am curious what, if anything, has been done to address 
that. Because we spoke about this yesterday. We can address 
this congressionally, and we might well get it wrong. Or we can 
ask you acquisition professionals to give us some guidance on 
how to address this, and hopefully we will get it right. But 
one way or the other, we have to address this.
    That would be the first thing.
    The second thing is, how many engines--how many varieties 
of engines do you have in your MRAPs?
    General Brogan. Three, sir. All three are widely used 
commercially.
    Mr. Taylor. Okay.
    General Brogan. The engine in the IMG vehicle, the 
International Military Group vehicle, is produced by IMG. They 
are the largest producer of that class of diesel engines in 
North America. They have a worldwide parts-distribution 
network. They use it in their commercial fleet, as well as in 
these vehicles.
    The other two engines that are in use are Cummins and 
Caterpillar--again, both widely used in the commercial market. 
So the availability of repair parts is very robust.
    Mr. Taylor. And how many different chassis are you dealing 
with?
    General Brogan. Each company has its own chassis.
    Mr. Taylor. So that is how many varieties, sir?
    General Brogan. Currently, it is five.
    Mr. Taylor. Okay, and then the equipment packages of 
electronics, how many different packages do you have?
    General Brogan. Sir, each service has its own equipment 
package for the government-furnished equipment, the radios, 
because those radios interact with all of their existing 
command and control structure. So those are robustly supported 
through each service's command and control systems.
    Mr. Taylor. So that gives you now how many variations of 
MRAPS to procure spare parts for and to maintain over some very 
long and treacherous roads?
    General Brogan. Sir, it is not straight multiplication, 
because, for example, the Marine Corps is pure-fleeted with the 
Force Protection Inc. (FPI) product, with the exception of some 
ambulances. The Navy is pure-fleeted with the FPI product. The 
Air Force primarily has one vendor's product, I believe it is 
the BAE Systems. Special Operations Command is pure-fleeted. 
They have two, because they had bought some prior to the 
initiation of the MRAP. So they have a small number of RG-31s, 
and then they have RG-33s.
    The Army, because of their huge quantity, has the biggest 
diversity. But recognizing that early on, they have halted 
production of the General Dynamics, so there is only 620 of 
those that are being procured, the RG-31. They have settled now 
into three principal types: the RG-33, the Cayman and the IMG 
Max-Pro.
    General Brogan. But they are only buying the category 1 of 
the IMG product; they are primarily buying only category 2 RG-
33s and only category 31 cannon vehicles. So it isn't as bad as 
it could be. But for the electronics in particular, in my mind 
those are no different vehicles; it is different installation 
of a communication suite that could be put in any vehicle that 
belongs to that Service. The radios, the blue force tracker, 
the jammers that are in the Army vehicles, MRAP vehicles, are 
identical to what they have in their Strykers, in their tanks, 
in their Bradleys, in their up-armored Humvees. So it really 
hasn't expanded the sustainment base for the electronics, sir.
    Mr. Taylor. When we visited Space and Naval Warfare Systems 
Command (SPAWARs), the folks running that factory tried to make 
me aware of the difficulties. And they threw out a number of 
how many different varieties--my recollection is 23.
    General Brogan. I believe that is accurate, sir. Those are 
23 different installations. And some of those were never put 
into play. For example, they looked at how to do a Marine Corps 
Government-Furnished Equipment (GFE) suite in an IMG truck. 
Now, the Marine Corps aren't going to buy any IMG trucks. So 
even though that is one of the 23, it is not being put into 
production.
    But to your point, that certainly creates the complexity 
for SPAWAR, for them to be able to manage the installation of 
GFEs. And they have done very well at doing that.
    Mr. Taylor. Again, having seen the convoys forming up in 
Kuwait, hundreds of vehicles forming up knowing they have got 
to travel hundreds of miles, any one foot of it could be mined, 
a very perilous journey. All these different varieties of 
parts, all these different varieties of vehicles--and knowing, 
as all three of you gentlemen pointed out yesterday, the 
Marines are excellent stewards of the equipment that the 
American taxpayers give them, no one has ever said that you are 
not, if you get something in the inventory, you are going to 
keep it for a long time and you are going to take care of it--
but this does create a logistical nightmare as we are trying to 
solve the problem of Marines dying needlessly from underbody 
explosions.
    Which leads me to my point. You use expedited acquisition 
for things like axles. Did anyone in the Marine Corps at any 
time say we can do this a lot better, we can do this a lot 
faster, we can make things a heck of a lot simpler down the 
road if we build one variety that is going to take the tough 
political call of somebody shutting down a factory and, doggone 
it, some American might have to wait an extra month for his 
Ford Ranger?
    Given the fact that young Marines are dying, young soldiers 
are dying, young sailors are dying, did anyone in the 
acquisition process ever turn to the Secretary of Defense and 
say, sir, you have the authority to shut down that factory, 
make these vehicles we need, let's do it?
    General Brogan. Yes, sir. And I am not familiar with the 
authority to take over factories. I am familiar with the 
defense priority and allocation system, the DX rating that I 
mentioned for us to get head-of-the-line privileges, and we 
have exploited that.
    Early on, as we were testing these vehicles, we didn't know 
if one of them was going to be so superior to the rest that we 
should set on it as the only type series model that we built. 
To our good fortune, I believe, as we looked at the five that 
we eventually gave orders to and have bought vehicles from, all 
of them met the standard. But there wasn't any one that was so 
superior to the rest that we should settle on it. Had that 
occurred, we were prepared. And, as I mentioned, the vendors 
themselves are willing to go and build just one type series 
model.
    And, in fact, I think in this next delivery order, because 
we now have the pipeline full, there are enough vehicles in the 
pipeline to deal with turbulence and perturbation, we have the 
luxury in this next delivery order of dictating to our needs 
which vehicles we want to buy and how many of them. And then 
what industry has requested of me is, don't tell us how to suck 
the egg, tell us how many vehicles you want, and give us the 
opportunity to come back to you with a plan as to how we are 
going to produce it, whether that is all in our own factory or 
a combination of factories.
    Mr. Taylor. I greatly appreciate your answers.
    Mr. Wilson.
    Mr. Wilson. Thank you very much, Mr. Chairman. And I 
appreciate your visit to Charleston, and indeed the Chairman 
has had two daughters attend college at Charleston, so it is 
like going home.
    Mr. Taylor. And he is very grateful for my money.
    Mr. Wilson. And he financed South Carolina.
    But I am impressed by SPAWARs, and on my visits there it 
has been really impressive to see the efforts being made, and I 
am delighted to see that they have truly expedited the 
government-furnished equipment, the integration on MRAP. I am 
delighted to see that the facility at Orangeburg, South 
Carolina, which is right up the interstate, is now operating.
    As we consider the MRAP, I have also been very impressed by 
the Cougar and Buffalo. And what is the status of any 
additional purchases or use of those two vehicles?
    General Brogan. Sir, based on requirements that were given 
us by the user, we have probably made our last procurement for 
U.S. forces of the Cougar vehicle. We have, however, recently 
awarded them a delivery order to build what is called the 
Mastiff, which is the United Kingdom's version of the six-by-
six Cougar, and we are still in the negotiation process for an 
additional delivery order for a vehicle referred to as the 
Ridgeback, which again is the United Kingdom version of the 
four-by-four Cougar. The Italians have also specifically 
requested Cougar vehicles. So we continue to give them foreign 
military sales cases so that they can continue to produce their 
product.
    As I mentioned, the Marine Corps is pure fleeted with the 
Cougar vehicle, but we have reached our requirement. We have 
only a small number of vehicles yet to procure. And, given that 
the Army has a few Cougars, and to reduce to the Chairman's 
point this logistics challenge, it is now being discussed 
whether or not there should be an Armed Service cross-leveling 
agreement and those vehicles move over to the Marine Corps side 
of the ledger so the Army can be pure fleeted with a fewer 
number of type series models.
    The Navy is also pure fleeted with the Cougar vehicles. 
They have served us very well. We have been very fortunate to 
have Force Protection as one of our prime manufacturers. They 
have done a great job serving us.
    Mr. Wilson. And I have been impressed with my visit there 
to see the people working and making the vehicles, and with a 
sincere dedication and concern about our Marines and troops.
    I was happy to read where the MV-22 has been placed in 
service. In fact, I understand there are 10 currently serving 
in Operation Iraqi Freedom. What is the status of their use and 
what has been the experience?
    General Castellaw. Congressman, first of all, thank you for 
taking care of Buford. Being able to get down there and see the 
great people at Buford and flying those jets down there, it is 
a great ability. And thanks for hosting the Marines and taking 
care of them like you do.
    The V-22 deployed last fall. It has been accomplishing all 
the missions that we expected of it. Its readiness rate is 
good. One of the great things about it, right now the amount of 
maintenance manhours it takes for every hour of flying is about 
9. The 46, the aircraft it replaces, it is over 20. And for the 
53 Echo, which is another helicopter that has a lot range and 
that we use, it is over 40. So you can see that that has given 
us what we need in terms of maintenance.
    Again, I had the opportunity over the holidays to fly in 
it. We flew all over Anbar province. You can fly anywhere in 
Iraq, unrefueled. It flew General Petraeus over the holidays 
all over. It was the only aircraft, single type of aircraft 
that could go everywhere that he had troops, because it can 
land vertically or otherwise. So the aircraft is doing great 
and doing everything a combat aircraft needs to do.
    Mr. Wilson. This is just terrific news, because many of us 
were really concerned with the design problems, and to find out 
that it has been deployed and is making such a difference, I am 
delighted to hear this.
    And, again, we appreciated your service in Buford. And you 
are a legend in the community, so you know that you are 
welcome. And we still have one condo left for you to come back 
down to Hilton Head.
    And I want to thank Congressman Bartlett for letting me 
have my time, and I yield back my time.
    Mr. Taylor. The Chair recognizes the gentleman from 
Maryland.
    Mr. Bartlett. Thank you. I want to explore for a couple 
minutes a legitimate concern that our Chairman has for data 
rights, design rights, the proprietary property thing. In 
another life, I worked five years for the Federal Systems 
Division of the International Business Machines (IBM) 
Corporation. And during World War II, IBM did a lot of work for 
the military. Tom Watson, Senior, I think, was running the 
company there, and after every contract he renegotiated the 
contract for one-half of one percent profit, because he said 
that wartime was no time for business to be getting rich at the 
expense of the taxpayer.
    Our Chairman asked about the potential for using one part 
of the design of the MRAP, like he mentioned the seat I think 
which is superior, and why can't you put that in every one, and 
the answer was because it is proprietary. Somehow we have to 
have a mechanism for being able to expeditiously and affordably 
have access to this proprietary information. And I know what 
proprietary information is, because in a former life I was 
privileged to receive 20 patents, and 19 of those patents are 
military patents. And so I know this area.
    Now, if what they have is, in fact, an invention and they 
have it patented, then the vendor is entitled to something. If 
what they came with was a concept and we paid them for all the 
detailed design of that concept and it is not so unique that it 
is patentable, then, Mr. Chairman, I am having some trouble 
understanding why the taxpayer and our service people can't 
have access to that.
    General Brogan. If I may, sir. I was remiss in not 
answering that portion of the Chairman's question. We in fact 
own the test results. Those tests were performed at a U.S. 
Government installation.
    Mr. Bartlett. Why can't we use the seat in all of our 
vehicles?
    General Brogan. I will explain that, sir. Respectfully, the 
implementation of the seat is part of a holistic design of the 
vehicle. Some of the vendors have a free-floating floor in 
their design so that it is not in hard contact with the hull of 
the vehicle. That is the method by which they break the chain 
of acceleration transmission from the blast to the hull to the 
occupants. So their seats are hard-mounted on this free-
floating floor.
    Other vendors don't use that free-floating floor; they use 
a suspended seat, where the suspension is in fact braided nylon 
cord, and that is the mechanism by which they break the 
acceleration's chain, so that what the hull experience is, is 
absorbed by those cords rather than by the body.
    A third vendor mounts his to the ceiling; a fourth, to the 
side. There is no one of those implementations that is far 
superior to the rest.
    Mr. Bartlett. Maybe we chose the wrong example. I thought 
the Chairman said that if you had one seat that was better, why 
can't you use it. I understand that they were solving a problem 
with different approaches. You have to isolate the personnel. 
You do that either isolating the seat itself or the structure 
on which the seat is fastened and so forth.
    But what do we need to do to be able to have access to this 
information? We are always held up for design rights. And now, 
maybe, they came with something in their mind and that is 
theirs. If that came into their head when they awoke at night 
to go to the bathroom or something, that is theirs. That 
belongs to them. And if in fact it is patentable, then we need 
to pay them a reasonable price for that.
    I would think, Mr. Chairman, that up front we could 
negotiate in these contracts what a reasonable price is to pay 
for those kinds of things.
    I just see us getting hung up over and over again, that we 
can't really complete things because so darn much is 
proprietary. We can't really take advantage of the things, that 
creativity that we have paid for, because it is now deemed to 
be proprietary. We pay sometimes billions of dollars for these 
platforms. And there is essentially no competition because only 
the guy who built it can build the next one, because he has got 
design rights that we can't get.
    Now, I know the Chairman is concerned, and I really share 
that concern, that when we go into a contractual relationship, 
we need to know that we are going to be able to get those for a 
reasonable cost.
    I think we need, Mr. Chairman, a culture change in the 
industry. And I mentioned the IBM experience because that was a 
cultural thing. Tom Watson, Senior, didn't believe that wartime 
was a time to be getting rich at the expense of the taxpayer. 
And I think that when our young men are at risk, it is not a 
time for a company to be holding us up because of proprietary 
right.
    In a free market economy where people prosper because of 
their creativity, how do we do this?
    General Brogan. Sir, there are two issues there that you 
correctly described. The first is if the U.S. Government pays 
for the design, then we own that design if we pay for the 
development effort. In the case of MRAP, they brought their 
designs to us. We gave them a performance specification--
    Mr. Bartlett. Who were they building it for before they 
built it for us?
    General Brogan. In the case of BAE Systems, their design 
was the RG-31 originated in South Africa at their facility 
called OMC. So the RG-31 and its cousin the RG-33 trace their 
origins to use in the South African military.
    Mr. Bartlett. Does South Africa own any of those data 
rights?
    General Brogan. I don't know, sir.
    Mr. Bartlett. Did we inquire?
    General Brogan. I did not; because we put into our 
contracts a data rights clause that, should we desire to buy 
that tech data package, we could.
    Mr. Bartlett. At what price?
    General Brogan. We did not negotiate that price.
    Mr. Bartlett. What about a billion dollars?
    General Brogan. Sir, I can't speculate on what it would 
cost.
    Mr. Bartlett. Just putting in there that we can buy it, of 
course we can buy it, but it can be a holdup amount. I want 
something in the contract that says we are going to be able to 
buy it for something that is fair and reasonable. Is that 
unreasonable to expect that?
    General Brogan. I don't believe that it is, sir. I believe 
that that can be done. And in some cases where the U.S. 
Government has decided that it is going to reprocure a system 
and it wants to have competition in the reprocurement, the U.S. 
Government does buy tech data packages.
    In the case of MRAP, we are buying principally this vehicle 
for this fight, this enemy, this type of threat. The future is 
the Joint Light Tactical Vehicle. So it was not deemed 
necessary to buy the tech data package for two reasons: One, it 
is not our long-term future vehicle. But the second, and I 
believe more important, is that we continue to update the 
design of these vehicles to increased levels of protection, 
like the Explosively Formed Penetrator that we talked about 
earlier. So had we bought that tech data package early on, we 
would have had something that is no longer of value to us.
    If at the end of the day, the U.S. Government believes that 
we have got to have this vehicle to produce in serial faction, 
to do serial manufacturing within the future, then by all means 
we should buy the tech data package. But I don't believe that 
is the case.
    Mr. Bartlett. Maybe that is not a good vehicle because it 
is kind of unique. But we buy a whole ship, and the design 
package on that is huge. And, Mr. Chairman, I can't imagine 
that much more than a tiny percent of that was created with 
money that wasn't our money, particularly in a company that 
does nothing but work for us. And yet, when we go to buy that 
package to produce competition, it costs you the legendary arm 
and a leg to buy it.
    How can that be true when I would suspect 99-plus percent 
of all the money that went into creating those data rights--as 
we will call them--was our money? Why is it, if it is our 
money, why aren't they our rights?
    General Brogan. Sir, I agree with you. I believe it is.
    Mr. Bartlett. But they don't believe it is, because we 
can't get those. We can't really have a competition if we can't 
get those rights.
    Mr. Taylor. If I may, Mr. Bartlett.
    General, we have spoken about this before. And I would like 
to inform the members that as a part of the Chairman's mark, 
there will be language. This is any future acquisition programs 
that come out of this subcommittee, that the proprietary rights 
of that information will be part of the contract.
    The reason I say that, General, is I would now, having made 
that statement, strongly encourage your command to work with us 
to do this right.
    General Brogan. Yes, sir. And what I intend to do, given 
what you passed on to me yesterday in our meeting as well as 
today in the hearing, is provide to the Navy Service 
Acquisition executive, the acting Assistant Secretary of the 
Navy (ASN), Mr. Thackrah, as well as to Secretary Young, the 
Under Secretary of Defense for Acquisition and Technology and 
Logistics, your intent so that they can corporately for the 
entire department help you craft that language.
    Mr. Taylor. Mr. Bartlett.
    Mr. Bartlett. I support your concern about that. And we 
just really need to do something. I don't want to be sitting 
here next year talking about this problem again.
    General Brogan. I understand, sir.
    Mr. Taylor. A couple of things I hope you gentlemen will 
touch on--and we will try to get you out of here at a halfway 
decent hour. If you could walk the committee through the 
weapons upgrade to the V-22. You have convinced me it is a good 
platform. For the sake of the widows who appeared before this 
committee a few years back--and that was a troubling hearing--
half of the widows there wanted us to cancel the program; half 
of them said they did not want to see their spouse die in vain.
    So, for the sake of all those people who came to the 
hearing about a year ago, I would like to report that I think 
the program is doing well. We certainly value the sacrifice of 
each of those pilots and the crews that lost their lives in 
developing it. But I personally think that it now has a 
vulnerability and that it is not as well-armed as it could be.
    I am curious: Is it in your funded requirement list or 
unfunded requirement list, the upgrade to the weapons system on 
the V-22, General?
    General Castellaw. Sir, after you and I talked yesterday, i 
went back and talked with the Deputy Commandant For Aviation, 
George Troutman. And recently, within the last 2 weeks we have 
crafted, working with the Congress here--and we are talking 
2008 supplemental global war on terror (GWOT) money--is working 
with the Air Force, we are going to put about $40 million of 
that money, that $80 million that I talked to you about-- part 
of it is going to be R&D to work the peculiar issues, putting 
it into the MV--the CV is the one that is being billed for 
right now--and to buy about 12 kits with the 2008 money.
    So the stories get even better than what I told you 
yesterday. Right now we think the weapon will be on both the CV 
and the MV, and it will be, as I talked to you about, it will 
be a currented model. It will go in what we call the ``hell 
hole'' where the cargo hook is, it will have a separate station 
for the gunner. But that money is in the GWOT.
    Mr. Taylor. In the supplemental request?
    General Castellaw. Yes, sir. And it is the amount that has 
not been appropriated yet.
    Mr. Taylor. I guess the last thing I would like to make an 
observation on--and, again, we value what you do for our Nation 
and in particular your 30-plus years of doing that for our 
Nation. The Ranking Member and I continue to have some concerns 
on the EFV, in particular going back to the subject of 
underbody explosions. We think that the magnificent vehicle 
that has been designed to go over 20 knots in the water, to go 
over 60 miles an hour on land would be even better if it was 
more resistant to an underbody explosion. And since, as you 
very correctly pointed out to us, that whatever becomes a part 
of Marine inventory is probably going to be there for 30 years, 
because you are going to take good care of it, and because 
underbody explosions are a vulnerability that, unfortunately, 
this enemy has exploited and we have got to presume future 
enemies will, I would like to express my continued concerns.
    Number one, my thanks for trying to address the problem. 
But my continued concern is that I don't think the Marines are 
there yet. And I would hope that we could continue to work 
toward this. I want you to get the vehicle. I just want to make 
sure that when we spend an enormous amount of the taxpayers' 
money, that it is the best vehicle that we can provide for the 
young Marines who are going to ride in it, not just for now but 
for the next 30 years, so that it does not become a stop-gap 
program, which a lot of people have alluded to as far as the 
MRAPS.
    Mr. Bartlett, do you have any further question?
    Mr. Bartlett. No. I share the Chairman's concerns about the 
design of the Expeditionary Fighting Vehicle. I think that 
without increasing its weight, I think that it can be 
redesigned with the vast bucket concept, which is what I talked 
with them about, to vastly increase the protection for the crew 
without increasing its weight.
    And I would just before--I am happy to go on with the 
procurement--I would like to see a real try at doing that 
design. Thank you, Mr. Chairman.
    Mr. Taylor. I thank the Chairman. And for the record, we 
are going to allow the members who were busy with other duties 
two weeks to submit their questions for the record.
    Again, I want to apologize to our panel and all of the 
people present for the delay. And thank you very much for your 
service to our Nation, and thank you for what I thought was, as 
far as I am concerned, a very informative hearing. Thanks for 
walking us through all those things.
    The meeting is adjourned.
    [Whereupon, at 6 p.m., the subcommittee was adjourned.]
      
=======================================================================

                            A P P E N D I X

                           February 27, 2008

=======================================================================

              PREPARED STATEMENTS SUBMITTED FOR THE RECORD

                           February 27, 2008

=======================================================================
      
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
      
=======================================================================

             QUESTIONS AND ANSWERS SUBMITTED FOR THE RECORD

                           February 27, 2008

=======================================================================
      
                   QUESTIONS SUBMITTED BY MR. SESTAK

    Mr. Sestak. In August of 2007, MARCORSYSCOM added a new information 
architecture requirement to the MRAP II called the Data Distribution 
System. Its purpose is to improve the fielding of new technologies by 
affordably networking sensors, weapons and communication components 
into a single data bus. Considering that this is an important 
requirement that links together MRAP vehicles and increases their 
operational readiness, and I understand it is included in the Urgent 
Need Statement and Operational Need Statement, there does not seem to 
be any funds allocated to the Data Distribution System within the 
existing MRAP program budget. What is the current status in terms of 
funding, procurement and rapid fielding of the Data Distribution System 
in existing and future MRAP vehicles?
    General Amos, General Castellaw, and General Brogan. The Marine 
Corps Systems Command, as well as the Joint Community, advertised a 
Performance Specification for MRAP II which included a specification 
for a Data Distribution System. While the data bus requirement was not 
in the Urgent Needs Statement or the Operational Need Statement, it is 
in the MRAP II Performance Specification. If it is determined that we 
are going to procure MRAP II in production quantities, this data bus 
capability could be procured for those vehicles at that time.
    Currently, the Joint MRAP Vehicle program budget includes funding 
for approximately $200K per vehicle for all upgrades that may be 
required for the MRAP I fleet. There is no individual budget for any 
specific upgrades, and the Joint Program Office is prioritizing 
upgrades as the operating forces and the Joint Requirements Oversight 
Council validates their requests. The highest priority upgrades include 
increasing the survivability of the vehicles and the ability of 
vehicles to hold more weight, and therefore, more armor (e.g. 
Explosively Formed Penetrator (EFP) protection). Additional upgrades 
are for stronger suspension components, light kits, increased capacity 
alternators and improved ventilation.
    If it is determined that a data bus is required we will prioritize 
that along with the survivability and safety modifications we are 
currently doing and then ask for additional funds if necessary.

                                  <all>

</pre></body></html>
